George T. Patton, Jr.
Phone: (202)470-1944
Fax: (202)973-8211
E-Mail: GPatton@boselaw.com

VIA UPS OVERNIGHT MAIL

March 18, 2021

Justice Amy Coney Barrett
United States Supreme Court
1 First Street, N.E.
Washington, D.C. 20543
Re:

Warsaw Orthopedic, Inc., Medtronic, Inc., and Medtronic
Sofamor Danek, Inc. v. Rick C. Sasso, M.D.
United States Supreme Court
No. 20-1284

Dear Justice Barrett:
Today as counsel of record for Respondent, I filed a Waiver to the Petition for
Writ of Certiorari in the above-referenced matter. I write to advise you that your
husband's law firm represented Petitioners in the underlying state court
proceedings at trial in the Marshall County Circuit Court, and on appeal to the
Indiana Court of Appeals and Indiana Supreme Court. See Pet. 6 (“In August
2013, Sasso sued Medtronic in Indiana state court”); Warsaw Orthopedic, Inc. v.
Sasso, 162 N.E.3d 1, 5 (Ind. Ct. App. 2020), trans. pending (listing LaDue Curran
& Kuehn, LLC, South Bend, Indiana as counsel for Medtronic). I thought you
would like to be reminded of his involvement so that you may consider the
appropriateness of your participation in this matter before voting on the petition.
Sincerely,

George T. Patton, Jr.
GTP:lsc
cc:
Paul D. Clement (via UPS Overnight mail and
email: paul.clement@kirkland.com)
Clerk, United States Supreme Court (via UPS Overnight Mail)
4053960

777 6th Street NW, Suite 510 | Washington, DC 20001 | (202) 470-2393 | (202) 973-8211 (fax) | www.boselaw.com
Bose McKinney & Evans LLP is a member of Mackrell International, a network of independent law firms from more than 60 countries.

